No. 20-565

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker

Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit

REPLY BRIEF

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel.: 404-213-8324
E-Mail: matthews.6038@yahoo.com
Pro-Se Petitioners

RECEIVED
FEB - 2021
Trig CLERK

COURT U S
SUPREME

I.

Table of Contents

Table of Contents

1

Table of Authorities

2

Additional Question Presented

3

Argument and Reply

3

Additional Reasons to Grant the Petition

10

Conclusion

11

1

II.

Table of Authorities
Cases

Cramer, Inc. v. Southeaster Office Furniture Wholesale

18

Lakes v. Marriott Corp

18

Statutes/Rules
O.C.G.A ยง 9-12-41

2

I.

Additional Question Presented

1. Whether the Eleventh Circuit Court of Appeals should have terminated the
Defendant on this after receiving the case on appeal

II.

Argument and Reply

The Eleventh Circuit Court of Appeals erred when it terminated the
Defendant after the case was transferred the appeal court
Respondents have not been forthcoming to this Court. They are aware they
were not identified as Defendants originally by the District Court. They were
added to the action only after the case was submitted to the appeal court.
In the conclusion of the decision entered by Judge Jones he concluded that
Matthews v. State Farm No. 1:10-cv-01641 was an old case which ended in
2012 and this statement was correct, however the Matthews filed a new case
against their former attorneys David Merbaum and Andrew Becker for a
Motion for Contempt.
The Mathews served by sheriff David Merbaum and Andrew Becker. David
Merbaum and Andrew Becker received the complaint from Fulton Sheriff.
(Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, Case Docket, Motion
for Contempt Against Attorneys David Merbaum and Andrew Becher with
Brief in Support, July 2, 2019, Doc 111).

3

David Merbaum and Andrew Becker filed their reply Response in Objection to
Motion for Contempt as Merbaum Law Group, PC and their reply was signed
by Plaintiffs' former attorneys David Merbaum and Andrew Becker
(Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, Case Docket, Response
in Objection to Motion for Contempt, July 17, 2019, Doc 115).
David Merbaum and Andrew Becker's objected that they should not be held
in contempt because they should not be held in violation based on Judge
Hunt's October 25, 2010 ex-parte hearing.
Although Judge Jones heard arguments by the Plaintiffs the Matthews and
David Merbaum and Andrew Becker of Merbaum Law Group Judge Jones
concluded that the Matthews argument was based on an old case Matthews
v. State No. 1:10-cv-01641).
In Judge Jones conclusion he stated "Plaintiffs are cautioned and warned
that any future filings that a without a plausible legal basis in the case sub
judice (that has been closed since 2012) may be subject to monetary and other
sanctions deemed appropriate by this Court and applicable rules/law."
However, the Judge erred when he concluded the matter presented before
him was between the Matthews and State Farm who were the Defendants in
the original case which ended in 2012 ( Matthews v. State Farm No.
1:10-cv-01641)

4

Additionally State Farm's attorneys are identified on Matthews v. State
Farm as Mark Dietrichs and Kathleen Marsh and they were not served by
the Matthews nor did not they file any reply to the court.
The Matthews filed an appeal to the District Court because of the errors on
the case and served David Merbaum and Andrew Becker who represented
Merbaum Law Group.
When the Matthews became aware that David Merbaum and Andrew Becker
representing Merbaum Law Group had not filed an appearance into the case
or any response they contacted the Eleventh Circuit Court of Appeal. Shortly
after the appeal court was notified the court terminated State Farm as the
Defendants on the appeal action and added David Merbaum and Andrew
Becker of Merbaum Law Group as the Interested Party - Appellee. This
action removed the original Defendants State Farm for which Judge Jones
had entered his decision. George Matthews et al v. Andrew Becker, Docket
Report, No. 19-15001, shows: State Farm and Fire & Casualty Company
status as Terminated: 02/11/2020).
The result of the Eleventh Circuit COA action meant that Plaintiffs
Matthews were not appropriately appealing the decision as entered by the
District Court because the Defendants were replaced with David Merbaum
and Andrew Becker which was not the same case as Matthews v. State Farm.
The action taken by the Eleventh Circuit COA to remove the Defendant State

5

Farm resulted in the Eleventh Circuit COA being presented with a different
argument than what Judge Jones had entered a decision on.
It was alarming that the Eleventh Circuit thought it appropriate to create an
appeal for an entirely different Defendant once the case reached the appeal
court which. (Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, December
11, 2019, Doc 117)
When the Eleventh Circuit COA sent out the original Briefing Notice it was
sent to Defendant State Farm which was the wrong party. On February 11,
2020 amd re-noticed the appropriate party which had responded to the
Motion for Contempt in the District Court which was David Merbaum and
Andrew Becker of Merbaum Law Group (Matthews et al v. Andrew Becker
(Docket Report) No. 19-15001, Briefing Notice to David Merbaum and
Andrew Becker, February 11, 2020).
This restarted the court rule which required attorneys to file into the case
within 14 days. Pursuant to 11th Cir. R. 46-5 All attorneys (except court
appointed attorneys) must file an Appearance of Counsel Form in each
appeal in which they participate within 14 days after notice is mailed by the
clerk. Additionally the 11th Cir. R. 46-6 outlines the Clerk's Authority to
Accept Filings. (a) Filings from an Attorney Who Is Not Authorized to
Practice Before this Court. (1) Subject to the provisions of this rule, the clerk
may conditionally file the following papers received from an attorney who is
not authorized to practice before this court, unless the attorney has been

6

suspended or disbarred from practice before this court or has been denied
admission to the bar of this court. Attorneys were due to file an appearance
by February 26, 2020. The next day February 27, 2020 David Merbaum and
Andrew began filing into the case violating without making an appearance as
attorneys which violated 11th R. 46-5.
15.The Mathews filed a motion to the appeal court requesting they require
David Merbaum and Andrew Becker to adhere to the rule (Matthews et al v.
Andrew Becker, No. 19-15001, Motion to Disqualify Attorney's Filing
Certificate of Interested Persons Form Due to Failure to File an Appearance of
Counsel Form, March 2, 2020). Attorneys responded by filing an objection
stating that they would not file an appearance unless required by the appeal
court. Attorneys also filed a sanction against the Matthews for raising the
issue that they were not adhering to the rule. (Matthews et al v. Andrew
Becker, No. 19-15001, Objection to Motion to Disqualify Attorney's Filing
Certificate of Interested Persons Form Due to Failure to File an Appearance of
Counsel Form with incorporated motion for sanctions,).
The Eleventh Circuit COA denied the attorneys request to sanction but also
denied the Matthews motion and did not rise to require attorneys to sign an
entry of appearance in order to proceed before the court (Matthews et al v.
Andrew Becker, No. 19-15001, Order, March 30, 2020).
The appeal sent to the Eleventh Circuit COA was obviously flawed upon
arrival from the District Court. State Farm should not be allowed to use

7

Judge Jones conclusion in an future litigation because the Matthews did not
file a Motion for Contempt against State Farm. The Motion for Contempt
was filed against David Merbaum and Andrew Becker. As such, the warning
entered by Judge Jones was entered in error. The conclusion entered by
Judge Jones was also not applicable to David Merbaum and Andrew Becker
of Merbaum'Law Group because it was entered for Defendant State Farm.
The concerning issue before this Court is that David Merbaum and Andrew
Becker have filed to use the flawed ruling by Judge Jones to sanction the
Matthews being aware it was an erroneous decision and not applicable to
their case.
The decision by Judge Jones should not have been upheld, but overturned
once it reached the appeal court.

Respondents Case was dismissed in Cobb Superior Court and they hold no
judgment against the Petitioners

Specifically Respondents have excluded the fact that their case before Cobb
Superior Court was dismissed without prejudice and never re-filed.
Petitioners owe nothing to Respondents David Merbaum, Andrew Becker or
Merbaum Law Group.
The Respondents have excluded the outcome of their filing before Cobb
Superior Court. Merbaum Law Group v. Nina Matthews was dismissed from
Cobb Superior Court sua sponte which means it was Cobb Superior Court

8

who exercised its power to dismiss the case and not the Plaintiffs. The
dismissal of a case sua sponte also means that the court has stepped out of
its passive role in the litigation process and taken action to ensure
proceedings are fair and proper (Cobb Superior Court Cobb County State of
Georgia, No. 15-1-3498-51, December 12, 2019, Doc #260, Final Order
Dismissing Case Without Prejudice).
21.0CGA 9-11-41, which governs dismissal of actions, contemplates both
voluntary dismissals upon plaintiffs motion of stipulation, pursuant to
OCGA 9-11-41(a), and involuntary dismissals pursuant to OCGA 9-11-41(b)
for, inter alia, the "failure of the plaintiff to....comply with...any order of
court." The trial court's sua sponte dismissal order does not specify under
which it operates, but our Supreme Court has found that a sua sponte
dismiss may function as an involuntary dismissal. Such an involuntary
dismissal is authorized by OCGA 9-11-41(b)")(emphasis supplied), citing
Cramer, Inc. v. Southeaster Office Furniture Wholesale Co., 171
Ga.App.514,515(1), 320 S.E.2d 223 (1984)(where party made no formal
motion to dismiss, this Court found that "while it is true that OCGA
9-11-41(b) contemplates a motion by a defendant, the court may exercise
inherent power to dismiss sua sponte)(citations omitted). Although OCGA
9-11-41(b) imposes certain requirement for its application, neither party
objected or moved for reconsideration of its dismissal.

9

Attorneys for Merbaum Law Group never filed any motion to Cobb Superior
Court to reconsider their case after the order was entered to dismiss the case.
The dismissal of a lawsuit generally deprives the trial court of jurisdiction to
take further action in a case. A dismissal "deprive[s] the trial court of
jurisdiction and [leaves' the parties in the same position as if the suite had
never been filed." (Citation omitted.) Lakes v. Marriott Corp., 264 Ga. 475,
478, 448 S.E.2d 203 (1994).
24.Attorneys David Merbaum and Andrew Becker and Merbaum Law Group
know or should have known the ramifications of Cobb Superior Court's action
to dismiss their case and their decision not to re-file their case because they
failed to re-file their case.
25. Effective December 12, 2019 Cobb Superior Court divested itself of
jurisdiction and therefore could not take any further action on Merbaum Law
Group v. Nina Matthews.
26.Attorneys did not re-file their case to Cobb Superior Court and Attorneys did
not file any appeal. Attorneys took absolutely no legal action after Cobb
Superior Court dismissed their case without prejudice. The claims by
Respondents before this Court that somehow their case was preserved or
upheld are false (Cobb Superior Court Cobb County State of Georgia, No.
15-1-3498-51, December 12, 2019, Doc #260, Final Order Dismissing Case
Without Prejudice).

10

III. Additional Reasons to Grant the Petition
27. It was clear that the District Court sent a flawed error to the Eleventh
Circuit COA It was also clear that the Eleventh Circuit COA believed they
had received a flawed case because they attempted to remedy the issue by
removing the Defendants State Farm and replacing them with the Plaintiff's
originally intended Defendant David Merbaum and Andrew Becker of
Merbaum and Becker.
28. The error made in the District Court by ruling a case for the wrong
Defendants was so severe it is difficult to believe that the Eleventh Circuit
COA could believe that justice could prevail in a case where they took action
to replace the Defendants on an appeal.
29.As a result of the error by the District Court who erroneously considered the
Motion for Contempt against State Farm instead of David Merbaum and
Andrew Becker this meant that the Plaintiff's filed action Motion for
Contempt did not hold the intended Defendant accountable.
IV. Conclusion
Petitioners prayerfully request the this Court grant their petition for
certiorari.

DATED this 1st day of February 2020

Respectfully submitted,

11

rkg-LiAr. (

Geor Mathews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (404 213-8324
E-M. โข
atthews.6038 ahoo.com

Nina Matthews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (678) 231-7726
E-Mail: matthews.6038@yahoo.com

12

